USDOJ: Fraudulent Telemarketer Sentenced to 50 Years in Prison,
Co-Conspirators Also Sentenced for Roles in Fake Sweepstakes Scheme
Skip to main content | Skip to footer site map
Home
About Us
The Attorney General
Budget & Performance
Strategic Plans
Agencies
Business & Grants
Business Opportunities
Small & Disadvantaged Business
Grants
Resources
Forms
Publications
Case Highlights
Legislative Histories
Information for Victims in Large Cases
Briefing Room
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
Careers
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
Contacts
Home   »  Briefing Room    »  Justice News
Printer Friendly
Department of Justice
Office of Public AffairsFOR IMMEDIATE RELEASEWednesday, September 23, 2009
Fraudulent Telemarketer Sentenced to 50 Years in Prison,
Co-Conspirators Also Sentenced for Roles in Fake Sweepstakes Scheme
Four owners of Costa Rica-based telemarketing call centers, an employee and a Texas-based list broker have been sentenced for their roles in defrauding thousands of U.S. victims of more than $20 million through a phony sweepstakes scheme.
To date, 39 defendants have been convicted for their participation in Costa Rican-based fraudulent telemarketing schemes based on false claims that the victims had won large sweepstakes prizes.
U.S. District Court Judge Frank D. Whitney of the Western District of North Carolina yesterday sentenced Michael Mangarella, 49, of Brooklyn, N.Y., to 50 years in prison; Antonio Carl Testore, 54, of Montreal, Canada, to 97 months in prison; Martin Kalchstein, 63, of Brooklyn, to six years in prison; Jaime Ligator, 68, of Miami, to five years in prison; Michal Zakrzewski, 42, of Montreal, to 126 months in prison; and Trent Nyfeller, 44, of Dallas, to 41 months in prison. In addition, Mangarella was ordered to forfeit $10 million, Testore was ordered to forfeit $1.5 million and Ligator was ordered to forfeit $2.6 million. The defendants, except Kalchstein, also were ordered to pay restitution of $4,291,473, jointly and severally with other defendants. All the defendants were also sentenced to three years of supervised release following their prison terms.
All of the defendants, except Kalchstein, were convicted of conspiring to defraud U.S. residents, most above the age of 55, out of millions of dollars by deceiving them into believing that each had won a large monetary prize in a "sweepstakes contest." According to court documents, calls to victims were made from Costa Rica using computers to make telephone calls through the Internet, disguising the originating location of the calls. Victims were informed that the callers were from the "Sweepstakes Security Commission" and that to receive their "prize," victims had to wire to Costa Rica thousands of dollars for a purported "refundable insurance fee." As long as the victims continued to pay, the co-conspirators continued to solicit more money from them. Mangarella was convicted at trial in September 2008. The remaining defendants all pleaded guilty for their roles in the scheme: Ligator in September 2009; Zakrzewski in June 2009; Testore in August 2008; and Nyfeller in January 2007.
Kalchstein, who had already been convicted in the sweepstakes scheme and sentenced to 90 months in prison, pleaded guilty in June 2009 to failure to report to prison and obstruction of justice as a result of fleeing to Mexico, instead of reporting to prison to serve his sentence.
The case was prosecuted by Senior Trial Attorney Peter B. Loewenberg and Senior Litigation Counsel Patrick M. Donley of the Criminal Division’s Fraud Section. The Criminal Division’s Office of International Affairs also provided assistance. The case was investigated by the U.S. Postal Inspection Service; U.S. Department of Commerce, Office of the Inspector General; and U.S. Immigration and Customs Enforcement.
09-1015Criminal Division
Department of Justice Accomplishments
Open Government at the Department of Justice
Report a Crime
Get a Job
Locate a Prison, Inmate, or Sex Offender
Apply for a Grant
Submit a Complaint
Report Waste, Fraud, Abuse or Misconduct to the Inspector General
Find Sales of Seized Property
Find Help and Information for Crime Victims
Register, Apply for Permits, or Request Records
Identify Our Most Wanted Fugitives
Find a Form
Report and Identify Missing Persons
Contact Us
Site Map
A to Z Index
Archive
Accessibility
FOIA
No FEAR Act
Information Quality
Privacy Policy
Legal Policies & Disclaimers
For Employees
Office of the Inspector General
Government Resources
USA.gov
BusinessUSA
ABOUT
The Attorney General
Budget & Performance
Strategic Plans
AGENCIES
BUSINESS & GRANTS
Business Opportunities
Small & Disadvantaged Business
Grants
RESOURCES
Forms
Publications
Case Highlights
Legislative Histories
Information for Victims in Large Cases
NEWS
Justice News
The Justice Blog
Videos
Photo Gallery
CAREERS
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
CONTACT